"Audit of the Louisiana Medicaid Disproportionate Share Hospital Program - Louisiana State University Medical Center Hospitals Overseen by the Health Care Services Division,"(A-06-00-00026)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Louisiana Medicaid Disproportionate Share Hospital Program
- Louisiana State University Medical Center Hospitals Overseen by the Health Care
Services Division," (A-06-00-00026)
June 13, 2001
Complete
Text of Report is available in PDF format (2.45 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Medicaid provides that States make additional payments (called disproportionate
share hospital [DSH] payments) to hospitals for the uncompensated costs of serving
disproportionate numbers of low-income patients with special needs. This final
report points out that in the States 1998 fiscal year Louisianas DSH
payments to nine hospitals exceeded uncompensated costs by approximately $22.2
million. Also, we could not express an opinion on the allowability of $4.2 million
of claimed overhead costs because we could not determine the reasonableness of
the methodology used to calculate the costs. In addition to financial adjustments,
we recommended implementation of controls to assure DSH payments are determined
accurately in the future. Auditee officials generally concurred, and agreed to
implement the recommendations contained in our report.